GR-90-98-035
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE CITY OF ISLAND CITY, OREGON
 GR-90-98-035
AUGUST 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of one
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Island City (CIC), Oregon. The CIC received a
grant of $75,000 to hire one sworn deputy sheriff under the Funding Accelerated for
Smaller Towns (FAST) program. The purpose of the deputy sheriff under the grant program is
to enhance community policing efforts.
In brief, our audit determined that the CIC violated the following grant conditions:

- The CIC did not have a plan to retain the grant funded position.
- The CIC generally was not in compliance with grant reporting requirements. The CIC
  did not submit the Annual Department Report or Officer Progress Report for 1997. The
  Department Initial Report overstated the number of sworn officers and was not submitted
  timely. Three of the 13 required Financial Status Reports (FSRs) were not submitted and 5
  more were not submitted timely. The requests for reimbursement could not be reconciled to
  the associated FSRs. Requests for reimbursement using the Phone Activated Paperless
  Request System (PAPRS) generally were not documented.
- The amounts reported and requested as reimbursement for the grant were not based on
  the required actual cost data resulting in $4,502 (federal share) in questioned costs.

 
#####